<html>
<title> - MARKUP OF: COMMITTEE RESOLUTION NUMBERS 115-10 TO 115-18</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
        MARKUP OF: COMMITTEE RESOLUTION NUMBERS 115-10 TO 115-18

=======================================================================

                                 MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                            
                            
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-659                 WASHINGTON : 2018         
 
 
 
                            
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia




        MARKUP OF: COMMITTEE RESOLUTION NUMBERS 115-10 TO 115-18

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018

                         House of Representatives,,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:04 p.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, 
Loudermilk, Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/General Counsel; Cole Felder, Deputy General 
Counsel; Dan Jarrell, Legislative Clerk; Erin McCracken, 
Communications Director; Elizabeth Joseph, Professional Staff 
Member; Max Engling, Staff Director of the Commission on 
Congressional Mailing Standards; Jamie Fleet, Minority Staff 
Director; Khalil Abboud, Minority Deputy Staff Director; Eddie 
Flaherty, Minority Chief Clerk; and Teri Morgan, Minority 
Counsel.
    The Chairman. I call to order the Committee on House 
Administration for purposes of today's Committee meeting. A 
quorum is present, so we may proceed. The meeting record will 
remain open for 5 legislative days, so that Members may submit 
any materials they wish to be included therein.
    There are several items on the docket today. First on the 
agenda are two Committee resolutions amending the Committee's 
and Members' Congressional Handbooks, respectively. Committee 
Resolution 115-10 updates the advertisement regulations found 
in the Members' Congressional Handbook, and Resolution 115-11 
updates the advertisement regulations found in the Committee's 
Congressional Handbook. To place an advertisement with official 
resources, Representatives of the House are required to follow 
the regulations found in the Members' Congressional Handbook 
and submit the advertisement to the Franking Commission for an 
advisory opinion. Committee Resolution 115-10 updates the 
regulation to add additional categories for which Members may 
advertise.
    This update will offer additional flexibility to Members 
when communicating with their constituents while ensuring that 
the Franking Commission has clear direction on which 
advertisements are permissible. Committee Resolution 115-11 
simply updates the Committee's Congressional Handbook to codify 
the current practice of allowing committee offices to advertise 
for followers on social media, using their subcommittee titles 
in addition to the full committee name.
    Next on the agenda is Committee Resolution 115-12. This 
past February, the House passed H. Res. 724, which, among other 
things, required each House office to establish a universal 
antiharassment and antidiscrimination policy. H. Res. 724 also 
charged this Committee with establishing the regulations to 
assist House offices in developing their respective policies. 
Committee Resolution 115-12 sets out these regulations.
    These regulations should not be construed to limit a House 
office if it would like to add to the policy. The regulations 
contained in Committee Resolution 115-12 will be the minimum 
requirements for an office's policy.
    The last item on the agenda is a package of Committee 
Resolutions that will strengthen the regulations associated 
with individuals known as shared employees who are employed by 
three or more offices. I would like to thank the Vice Chairman, 
Mr. Davis, for his work on this issue through the task force, 
as well as the Ranking Member, who provided insight. I 
appreciate your good work, the products of which we are marking 
up today.
    Committee Resolutions 115-13 through 115-18 set forth 
policies the Committee has identified as essential to 
mitigating the risk posed by shared administrative employees 
and directing the House chief administrative officer, the House 
Sergeant at Arms, and the Clerk of the House to report back to 
the Committee within 30 days on the plans to implement these 
policies.
    In addition, Committee Resolution 115-17 reiterates the 
responsibilities of a shared IT or finance employee as well as 
sets forth the new regulations and requirements of undergoing a 
background check and adhering to best practices.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I support all the resolutions on our agenda 
this afternoon. I appreciate the work of Representative Davis 
in always thinking of ways we can better communicate with our 
constituents. And those two resolutions are good steps in 
giving our colleagues more tools to do that.
    We continue our work improving the congressional workplace 
with our resolutions on the antiharassment and 
antidiscrimination policies. Once again, Jackie Speier and 
Bradley Byrne have been helping in making sure that we get this 
right.
    With the training schedule we start next week, the timing 
is now for offices to start developing their own policies, and 
this regulation will give them a roadmap to just to do that. I 
would also like to mention that the Senate needs to act on our 
bill. We had a unanimous vote out of the House. The delay in 
the Senate is unacceptable, and they are further embarrassing 
themselves, which is pretty hard to do. They need to pass our 
bill.
    I will be submitting a longer statement for the record on 
the shared employees reforms we are considering. I support 
them, but I hope they are just a start.
    There are five different resolutions dealing with this 
issue, and I understand we are considering them altogether, 
which we should. But I want to make the point that there are so 
many resolutions, because everyone plays a part in making 
management--in managing this risk to the House.
    I look forward to seeing what the CAO and the other offices 
report back to us.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    The Chairman. The gentleman yields back.
    I would ask if any other Member of the Committee wishes to 
be recognized for the purpose of providing an opening 
statement.
    The Chair will now recognize the Vice President of the--
Vice Chairman, excuse me, new promotion for you, the Vice 
Chairman of the Committee, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    The Vice President was cornered leaving the President of 
France's speech by Virginia Foxx, so I think he is probably 
still on the House floor.
    The Chairman. It is a matter of education.
    Mr. Davis. Yes.
    I would like to associate myself with the comments from 
Ranking Member Brady in regards to our colleagues over in the 
Senate too. But I really want to thank Chairman Harper and 
Ranking Member Brady for their help in helping us craft the 
policies that we are addressing in today's markup.
    Over the past year, the Franking Commission has been 
working in a bipartisan manner to make improvements in the 
Franking regulations. I want to thank the Ranking Member, Susan 
Davis, and our fellow colleagues. And most importantly, I want 
to thank of the Franking Commission staff for their hard work 
throughout this process. They held listening sessions and 
following feedback with Member office--from Member offices. The 
Franking Commission decided to update several areas in the 
Franking regs to increase efficiency, flexibility, and 
transparency.
    Last fall, we passed a Committee Resolution that now allows 
Members to link directly to government websites, making it 
easier for them to connect their constituents with important 
information. And today, we are making it easier for Members to 
share their legislative priorities with their constituents 
also.
    For the shared employee Resolution, thank you, Chairman 
Harper, for the opportunity to work with my colleagues on this 
very important issue. Following a series of breaches to the 
House system, the Chairman hosted several meetings where we 
discussed shared employees. He then asked me to lead the task 
force to reform the shared employee program.
    The task force held numerous meetings and bipartisan Member 
listening sessions that were attended by both the Chairman and 
the Ranking Member. I do want to thank the Members who were not 
on this Committee who attended the listening sessions. Their 
input directly impacted the policies in the Resolution before 
us today. This carefully crafted Resolution balances the 
autonomy of Member offices while working to ensure the security 
of the House network. It is important and imperative--it is 
important and imperative that Jamie Raskin come back.
    The Chairman. The Vice Chairman is recognized.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you to my colleague, Ms. Comstock, too.
    It is important that we actually get this right when it 
comes to shared employees.
    This Resolution instructs the CAO and the Sergeant at Arms 
to report back to this Committee on how they will implement 
various new policies, such as establishing technical and 
financial standards for shared employees, terminating network 
access for shared employees who violate House policies, 
developing new badges for shared employees, and implementing a 
much-needed background check system.
    During my tenure on House Administration, I have worked 
towards the goal of professionalizing the House's operations 
and offices under the guidance of Chairman Harper and Former 
Chairlady Miller. I am disappointed in the events that led to 
this markup today.
    Throughout this process, we were able to work with Members 
on both sides of the aisle to develop these policies that will 
better protect the House network from bad actors in the future.
    And I yield back.
    The Chairman. The Vice Chairman yields back.
    I now call up and lay before the Committee, Committee 
Resolution 151-10 to approve the updates to the Members' 
Congressional Handbook.
    [The Resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Without objection, the first reading of the 
Resolution is dispensed with, and the Resolution is considered 
read and open for amendment at any point.
    Is there any debate?
    Are there any Members who want to offer an amendment to the 
Resolution?
    If not, I move the Committee adopt the Resolution. The 
question is on the motion. All those in favor, signify by 
saying aye. Opposed, say nay.
    In the opinion of the Chairman, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. I now call up and lay before the Committee, 
Committee Resolution 115-11 to approve the update to the 
Committee's Congressional Handbook.
    [The Resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Without objection, the first reading of the 
Resolution is dispensed with, and the Resolution is considered 
read and open for amendment at any point.
    Is there any debate?
    Are there any Members who want to offer an amendment to the 
Resolution?
    If not, I move the Committee adopt the Resolution. The 
question is on the motion. All those in favor, signify by 
saying aye. Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to. Without objection, the motion to 
reconsider is laid upon the table.
    I now call up Committee Resolution 115-12, a regulation 
adopting the regulations for the universal policy on 
antiharassment and antidiscrimination pursuant to H. Res. 724.
    [The Resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Without objection, the first reading of the 
Resolution is dispensed with, and the Resolution is considered 
read and open for amendment at any point.
    Is there any debate?
    Are there any Members who want to offer an amendment to the 
Resolution?
    If not, I move the Committee adopt the Resolution. The 
question is on the motion. All those in favor, signify by 
saying aye. Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to. Without objection, the motion to 
reconsider is laid upon the table.
    With the cooperation of Ranking Member Brady and other 
Members of this Committee, it appears that we have worked out 
an agreement on the remaining six Committee Resolutions 
scheduled for markup today.
    Before we begin, does any Member seek time to speak on any 
of the Committee resolutions in this unanimous consent motion?
    Now, I ask unanimous consent that the following Committee 
Resolutions be adopted as described. Committee Resolution 13, 
Committee Resolution 14, Committee Resolution 15, Committee 
Resolution 16, Committee Resolution 17, and Committee 
Resolution 18.
    Hearing no objection, so ordered.
    [The Resolutions follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    The Chairman. Without objection, the motions to reconsider 
are laid upon the table. I ask unanimous consent that the staff 
be allowed to make necessary technical and conforming changes 
to the bills ordered, report it today, subject to the approval 
of the minority.
    Hearing no objection, so ordered.
    Without objection, the markup is adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
